                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         This case was opened as part of a review of large equipment awards made to universities. We
         contacted a university1regarding an NSF award2in which questionable documentation regarding
         its cost share was discovered. The university provided us with a general ledger and journal
         ledgers for the award, as well as copies of all expenditures. Upon further review, we determined
         that this information was complete and in order. Although $5000 in cost share monies had been
         credited to the wrong account, journal ledger entries show that the university quickly and
         completely corrected their error approximately one month after it was made.

         Accordingly, this case is closed.




NSF O K Form 2 (11/02)
                                                                                                             ,'
                                                                                                            /'&
